  Management Advisory Report




 Single Audit of the State of
Oklahoma for the Fiscal Year
    Ended June 30, 2011




    A-77-13-00002| February 2013
Summary of Single Audit of the State of Oklahoma for the Fiscal
Year Ended June 30, 2011
A-77-13-00002
February 2013

Objective                                 Findings

To report internal control weaknesses,    The single audit reported DRS:
noncompliance issues, and
unallowable costs identified in the       •   Did not have a review and approval process to ensure the
single audit to the Social Security           accuracy of information reported on the Form SSA-4514, Time
Administration (SSA) for resolution           Report of Personnel Services for Disability Determination
action.                                       Services.

Background                                •   Did not always maintain documentation that vendors and
                                              contractors were checked against the Excluded Parties List
The Oklahoma State Auditor and                System before awarding contracts.
Inspector conducted the single audit of
the State of Oklahoma. SSA is             •   Did not have an effective method of reviewing the Schedule of
responsible for resolving single audit        Expenditures of Federal Awards (SEFA), therefore the risk of
findings related to its Disability            misstatement was increased.
Insurance program. The Department
of Rehabilitation Services (DRS) is the   Recommendations
Oklahoma Disability Determination
Division’s (DDD) parent agency.           We recommend that SSA ensure DRS:

                                          1. Creates procedures that will ensure the accuracy of the
                                             information reported on Form SSA-4514.

                                          2. Has adequate procedures to verify and document that each
                                             vendor or contractor has not been debarred or suspended.

                                          3. Has an appropriate review process in place to ensure accurate
                                             information is reported on the SEFA.
MEMORANDUM

Date:      February 7, 2013                                                         Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of Oklahoma for the Fiscal Year Ended June 30, 2011 (A-77-13-00002)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of Oklahoma for the Fiscal Year ended June 30, 2011. 1 Our objective was to report internal
           control weaknesses, noncompliance issues, and unallowable costs identified in the single audit to
           SSA for resolution action.

           The Oklahoma State Auditor and Inspector conducted the audit. The results of the desk review
           conducted by the Department of Health and Human Services (HHS) concluded that the audit met
           Federal requirements. In reporting the results of the single audit, we relied entirely on the
           internal control and compliance work performed by the Oklahoma State Auditor and Inspector
           and the reviews performed by HHS. We conducted our review in accordance with the Council
           of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
           Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Oklahoma Disability Determination Division (DDD) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The DDD is
           reimbursed for 100 percent of allowable costs. The Department of Rehabilitation Services
           (DRS) is the Oklahoma DDD’s parent agency.




           1
            Single Audit Report, State of Oklahoma 2011, For the year ended June 30, 2011.
           http://www.sai.ok.gov/Search%20Reports/database/OKSingle11FINAL.pdf, (last viewed January 8, 2013).
Page 2 - Gary S. Hatcher

The single audit reported DRS:

•      Did not have a review and approval process to ensure the accuracy of information reported
       on the Form SSA-4514, Time Report of Personnel Services for Disability Determination
       Services. 2 The corrective action plan indicates that procedures for preparation and review of
       the Form SSA-4514 have been completed.

•      Did not always maintain documentation that vendors and contractors were checked against
       the Excluded Parties List System (EPLS) before awarding contracts. 3 The corrective action
       plan indicates that training will be held on how to look up vendors and contractors in EPLS
       and how to document the results.

•      Did not have an effective method of reviewing the Schedule of Expenditures of Federal
       Awards (SEFA), therefore the risk of misstatement was increased. 4 The corrective action
       plan indicates the DRS is developing procedures for a detailed review.

We recommend that SSA ensure DRS:

1. Creates procedures that will ensure the accuracy of the information reported on
   Form SSA-4514.

2. Has adequate procedures to verify and document that each vendor or contractor has not been
   debarred or suspended.

3. Has an appropriate review process in place to ensure accurate information is reported on the
   SEFA.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                                  Patrick P. O’Carroll, Jr.
Attachment
cc:
Lynn Bernstein


2
    Id. at finding 11-805-001.
3
    Id. at finding 11-805-009.
4
    Id. at finding 11-805-011.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
